                                                                                      ,

                                                                                      I





                                                    NATIONAL SCIENCE FOUNDATION
                                                    . OFFICE OF INSPECfOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

Case Number: 110090042                                                                       Page 1 ofl



                We opened this I case subsequent to a proactive review. A catering finn selected by an NSF
        employee' had not been used by any other NSF organization. The employee initially denied knowing
        the owner of the catering finn and denied they shared a familial relationship. Subsequently, the
        employee admitted that the catering finn owner is her father, and that the selection of the catering .
        finn was based on that relationship. The employee admitted and accepted responsibility for her
        actions in an affidavit.

                 The employee's selection ofher father's finn violated NSF's conflict-of-interests rules. We
         referred this matter to NSF for action? We received NSF's response on January 25,2011. 3

                   Accordingly, this investigation is closed.




         I Redacted.
         2 Tab 1.
         3 Tab 2.




NSF OIG Fonn 2 (11102)
 CONFIDENTIAL                                                                              CONFIDENTIAL

 Background

         We conducted a proactive review of catering purchases made for NSF merit review'
 panels. The catering firm selected by an NSF Student Temporary Employment Program (STEP)
 employee2 had not been used by any other NSF organizations. (The cover forms and invoices,
 are attached at Tab 1.) The STEP student selected the catering firm and provided thei
 information to her division's Management Operations Assistant, who paid the invoices with the!
 purchase card issued to her. Purchases from the firm totaled $2,085.25 in 2009 for three panels'
 in the STEP employee's division.

        The GSA Purchase Card database identified the firm and listed its telephone number,                  butj~·
 provided no address. (Tab 2.) The telephone number in the GSA database, found on the coverl!
 forms~ and the invoices is listed to a man with an address in Springfield, VA, with the same!
 surname as the STEP employee. 3 (Tab 3.) The address associated with the firm's telephone
 number is a residential townhouse. 4 The contact person listed on the cover forms by the STEP,)
 student is a woman with a different surname from the STEP employee. s .                       t
         Because the firm selected by the STEP employee had not been used by any other' NSF;
. organization, the firm's telephone number was listed to someone with the same surname as the
  STEP employee, and the address associated with the firm's telephone number was a residence'l
  we investigated a possible conflict of interests (COl).                                      .

 Applicable Conflict of Interests Rules                                                                        .     .'



            Section 21 of NSF's COl mailUal states:

            You must obtain permission from a conflicts official before' participating in .
            matters involving specific parties any time you determine that a reasonable person
            with knowledge of the relevant facts would question your impartiality in the
            matter. In particular, you must obtain a determination from a conflicts official if
            ... [y]ou have a covered relationship with a party to the matter or with someone
          . who represents a party. '," You have a "covered relationship" with: .. , [a]
            member of your household or a relative ....6          .

                                                                                                                ij
 (Tab 5.) This rule is reviewed in the COl training provided by NSF's Office of General Counsel
 (OGC) which "[a]1I Program Officers and officials at or above a comparable level are *required*
 to" attend once a year. 7 STEP students are not required to attend this training.




               an                                     vocational, 2­ or 4-year college or university, graduate or
 r.rofessional school. See snipurl.coml13nalq for usajobs.gov's description ofthe STEP program.

          =I=~~.~~.~~. see aerial view at Tab 4.
                 5, also available at snipurl.com/13nd2k.
 7   See OGC description ofCOI training at Tab 6. Emphasis in original.
                                                        '­
CONFIDENTIAL 	                                                                     CONFIDENTIAL



       All NSF employees who are issued purchase cards are provided with VISA Purchase
Card Training. A slide in that training presentation, titled "Standards of Conduct," states in
relevant part:

               •	      The following conduct 'is prohibited under the
                       Purchase Card Program:

               •	      Filling requirements with vendors that are family,
                       friends, or neighbors. 8

(Tab 7.)

Interview of Employee and Follow-Up

        We interviewed the STEP employee and provided the appropriate warnings on
August 23, 2010. (Tab 8.) Initially, she denied that she knew the owner of the catering. firm.
After further questioning, she said she had met the owner at her church, but denied they shared a
familial relationship. She told us that she had rented a room from the owner for a brief time but
no longer lived there.

        After the interview, we reviewed the STEP employee's Official Personnel File and noted
that on her Designation of Beneficiary Form she listed the names and addresses of her father and
mother. Her father's name matches the name of the catering firm's owner and her mother's
name matches the name of the catering firm's contact person-and the STEP employee's home
address is the same address that she provided for her parents. (Tab 9.)

        Later that same day, we resumed interviewing the STEP employee, and she volunteered
that the catering firm owner is her father and that she had selected her father's company for the
three panels in 2009. The employee wrote and signed an affidavit under oath in which she
admitted and accepted responsibility for her actions. (Tab 10.)      .



                                                 was she reqUlrea to ao so), and she told us that
she was unaware of the proscriptions in the COl Manual (quoted above), which we found
credible. As a purchase card holder in her previous tenure at NSF, the STEP employee received
the VISA Purchase Card training described above in June 2007 (Tab 12.). However she was not
a purchase card holder in her current position and had not retaken the training since her
reemployment at NSF.




8 This requirement is also set out in NSF's "VISA Purchase Card 'Program Handbook and Training Manual" 

(available at snipurl.coml1299w4) at 13. 

') In the Office ofInformation and Resource Management, Division ofHuman Resources. 


                                                                                                     2
CONFIDENTIAL                                                                  CONFIDENTIAL!


Evidence of Pattern of Abuse

       We reviewed the STEP employee's purchase card purchases during her earlier NSF I
employment and found no evidence of abuse in the four office-supplies purchases she made ~
(which totaled $2,156).                    .                                . ;

Conclusion

        The STEP employee's selection of her father's catering company, without obtaining"
permission ofa COl official, violated section 21 of NSF's COl Manual-a rule of which she wasl
likely unaware. While she received training as a purchase card holder that mentioned in passing i
the prohibition on using family members to fill purchase requirements, that was 3 years ago,.
before an intervening job elsewhere. However, the fact that the STEP employee was less than.
forthcoming about the owner of the catering firm during our initial interview indicates that she
realized what she had done was improper, even if she did not know what the specific rules were.
                                                                                          \

Recommendation

        We recommend that NSF evaluate the STEP employee's conduct and determine what
action, if any, to take. .

Subject Response                                                                                i
        We p r o v i d e d _ a copy of the draft report for review. _                 stated that
she did not have anything to add/or change.                                                     I




                                                                                               '3 

                                                                                               I
                                 NATIONALSCIENCE FOUNDATION 

                                      4201 WILSON BOULEVARD
                                     ARLINGTON. VIRGINIA 22230


                                         January 25, 2011


   OFFICE OF THE 

  DEPUTY DIRECTOR 




MEMORANDUM 	                                                                                               I

                                                                                                         ';1
TO: 	          Dr. Peggy Fischer
               Assistant Inspector General for Investigations                                              I
                                                                                                           I
FROM: 	        Dr. Cora B. Marrett ~                                                                       [
               Acting Deputy Director; National Science Foundation 	                                     . I
                                                                                                           !


SUBJECT: 	     Response. to OIG Report oflnvestigation (016 case no. il0090042)

Upon receiving this Report oflnvestigation, the Office of the Director OIG Liaison met with the
STEP student's Division Director (DO) to discuss 'actions theDivision's management has takeni
to address the issues identified in the report.

Specifically, the DO met with the STEP student and discussed both the inappropriateness ofi:he
employee's behavior and the potential for hann to the Foundation and to the employee.'s own        I,'
status. The DO felt that the employee's actions were innocent though exceptionally ill-
conceived. He discussed the concept of abuse of the public trust with the employee and the need.
to avoid even the appearance of misuse ofgovemmentfunds. IIi addition, the DO discussed the
need to guard against waste, fraud and abuse with the Administrative Manager, and she 'madeit aj
topic for discussion at a meeting with her staff. The DO will reiterate this training at the next II
all-hands meeting ..

I believe these actions are appropriate and will deter any future conflict ofinterest situation    ~
associated with this STEP student. Please let me know if you have any q u e s t i o n s . ! .



cc:       Subra Suresh
        . Allison Lerner
          Myron Gutmann
          Lawrence Rudolph..
